U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




National Telecommunications
             and Information
              Administration


           NTIA Should Further Improve
                        Digital-to-Analog
          Converter Box Coupon Program
             Internal Controls to Prevent
                Waste, Fraud, and Abuse

                  Final Audit Report No. CAR-19004-1
                                      November 2008



                     FOR PUBLIC RELEASE
                                                 UNITED STATES DEPARTMENT OF COMMERCE
                                                 Dffic. olln.~or (MIMI,.I
                                                 Wooo/WIgton. OC. 20230




KovlJmblJr 25, 2008

l\IEMORA~DUM FOR:          i\h,redith AuwlJl1 Baker
                           Acting A.~sistant Secwtary for Communications
                             and Information


FROM:
                           ~J;~~
                           Assll;tant Inspector General for Audit and Evaluation

SUBJICCT:                  Nl'LA Shol/ld Further Impror;e Digital-to-Analog
                           Conr;erter Box COl/pon Program lnlernal Controls 10
                           ?ret'enl Waste, Froud, and Abuse
                           Final Auda Heport :-.10, CAR-19004-1

This IS our final audit ruport on the wllste. fraud. flnd abuse prevention aspect of
the National Telecommunications and Informfllion Administration's (NTIA's)
Converter Box Coupon Program.

In short. we found that S'TIA has made "ignificant progress in Implementing a
program to deter waste. fraud. and abuse but need!> to revise thlJ plan detailing the
waste, fraud. und abuse preventIOn activltilJs it IS plJrformmg. Your agency has
already taken ar;tion to address many of the concerns we pointed out durmg the
course of our review. sur;h as ohtllming moro timely informatlon about contractor
wastlJ. fraud, and abuse activitIes: revising how It documents the procedures it
performs: and trllcking its own i1ctlvities. Your :-.1ovember i, 2008. response to our
draft report provided additional detail on NTIA'" efforts to tdentlfy, deter, and
prevent waste, fraud. and abuse. \"e summanze the response in our wport and
have included it in its entirety as appendix B.

In accordance wllh Department Admmistrative Order 213·5, please proVide us with
an audit action plan within 60 day!> of the date of this memorandum.lfyou would
like to discuss the contents of the final report. please contact me at (202) 482-2i54
or Chns Rose at (202) 482·5558. Please accept our thanks for the courwsies NTIA.
IB.\I, lind Its subcontractors extended to us during our audit.
U.S. Department of Commerce                                Final Report CAR-19004-1 

Office of Inspector General                                          November 2008



cc:    Bernadette McGuire-Rivera, associate administrator
          Office of Telecommunications and Information Applications
       Anita Wallgren, program director, TV Converter Box Coupon Program
       Milton Brown, NTIA audit liaison




                                       2

U.S. Department of Commerce                                       Final Report CAR-19004-1 

Office of Inspector General                                                 November 2008



INTRODUCTION

NTIA has made substantial progress carrying out the $1.5 billion Digital-to-Analog
Converter Box Program since August 2007, when it contracted with IBM to
implement the program. Authorized by the Digital Television Transition and Public
Safety Act of 2005, the program provides up to two $40 coupons per household to
offset the purchase price of digital-to-analog television converter boxes, which will
enable consumers who do not have cable or satellite television to receive digital
signals on analog TV sets after February 17, 2009. More than 32 million coupons
have been distributed to consumers since February 2008, when NTIA began
distribution. As of November 12, 2008, more than 14 million coupons have been
redeemed for the purchase of approved converter boxes at program-certified retail
outlets and online retailers.

NTIA’s waste, fraud, and abuse program controls include reviewing IBM plans and
reports, monitoring IBM performance, analyzing retailer reports, and evaluating
retailer compliance with program regulations. NTIA detailed these activities in its
June 2008 Program Management Office Waste, Fraud, and Abuse Plan. In addition,
NTIA works with consumer web sites such as eBay and craigslist to prevent the
sale of coupons. NTIA officials have also coordinated with OIG’s Office of
Investigations to address various complaints of possible fraud, waste, and abuse.
These include the sale of converter box coupons, questionable advertisements, sales
of converter boxes by noncertified retailers, certified retailers’ acceptance of coupons
without a corresponding converter box sale, and a potential scheme involving the
transfer of coupons from nonparticipating retailers to a certified retailer for a small
profit. In each instance, NTIA officials have initiated appropriate administrative
action. As of September 9, 2008, NTIA had decertified 16 retailers for violating
program rules.

Our audit survey, initiated in November 2007, identified some concerns with NTIA
internal controls. Consequently, we began an audit in April 2008 to (1) assess the
adequacy of NTIA controls to prevent waste, fraud, and abuse in the Converter Box
Coupon Program and (2) determine the effectiveness of the bureau’s oversight of the
program, including monitoring the contract. We summarize the concerns identified
in the audit survey and detail the objectives, scope, and methodology of our audit in
appendix A of this report.




                                           3

U.S. Department of Commerce                                     Final Report CAR-19004-1 

Office of Inspector General                                               November 2008



FINDINGS AND RECOMMENDATIONS

NTIA Needs to Further Improve Digital-to-Analog Converter Box Coupon Program
Internal Controls

Our review found that NTIA is providing effective oversight of the program, but
needs to further improve its internal controls to prevent waste, fraud, and abuse. In
a July 9, 2008, meeting with NTIA’s Program Management Office, we outlined our
concerns about these internal controls. We discussed the need for NTIA to receive
more timely and informative data on contractor procedures, to revise the agency’s
own audit plan, and to clearly document the results of its oversight. Our subsequent
work, which included site visits to the offices of the two subcontractors handling key
aspects of the program, reinforced our concerns.

NTIA had not been receiving audit results until well after the applicable month,
though it had asked IBM to provide reports approximately 2 weeks after the month-
end. For example, NTIA received the June 2008 results on August 5. The agency
informed us that IBM has subsequently improved the timeliness of its reporting: it
provided the August 2008 audit test results on September 17 and the September
2008 audit results on October 17.

Reports of contractor activities have not always provided sufficient useful
information. The contractor reports NTIA received for May 2008 included
voluminous data tables (such as a table that lists number of transactions denied by
coupon identification numbers) but provided little analysis and limited information
on any actions to be taken as a result of audit tests. We discussed our concerns with
representatives of one of IBM’s subcontractors, who agreed that simple
aggregations of out-of-context data are of limited use to the agency. The
subcontractor representatives showed us tests and analyses they performed outside
of IBM’s plan, which we believe would provide valuable information for NTIA. We
found that June, July, and August reports provided more meaningful data. For
example, the reports contained retailer surveillance logs that more clearly identified
the status of potential program violation reviews and provided information on the
results of onsite visits to certified retailers.

NTIA’s Waste, Fraud, and Abuse Plan Needs Revision

NTIA should improve its own plan for reducing and preventing waste, fraud, and
abuse; fully implement the activities defined in the plan; and then clearly document
the results of its oversight. The Government Accountability Office’s Standards for
Internal Control in the Federal Government states internal control and all
transactions and other significant events need to be clearly documented, and the



                                          4

U.S. Department of Commerce                                      Final Report CAR-19004-1 

Office of Inspector General                                                November 2008



documentation should be readily available for examination. However, our review
found the following:

   •	 The original NTIA plan was incomplete. It did not include a complete listing
      of the bureau’s activities, did not define the Project Management Office’s role
      in the process to decertify retailers who violate program rules, and did not
      designate specific staff members responsible for activities.

       The plan also did not identify how often activities are performed or what
       resources are necessary to complete them. As a result, it is difficult to track
       NTIA’s progress against the plan. At the July 9, 2008, meeting, we showed
       NTIA a spreadsheet tool we had developed for our own analysis that could be
       used to track its waste, fraud, and abuse prevention activities. The
       spreadsheet identifies each activity; owner or contact person who performed
       the work; date/frequency of the review; analysis or test conducted; audit
       process or audit steps taken; documentation of findings and results; and
       recommendations or corrective actions taken, if any. NTIA officials
       subsequently told us that they have begun using the spreadsheet to track
       their results and have revised the plan to address our concerns.

   •	 Some activities the plan calls for have not been fully performed. For example,
      the plan states NTIA staff will make site visits to monitor contractor efforts.
      Although NTIA made some site visits earlier in the program, staff has not
      made specific visits focusing on waste, fraud, and abuse. Such visits are
      important because they allow real-time observation of internal controls at
      work. During our site visit to one subcontractor, we discovered unsecured
      converter box coupons. The coupons were quickly secured, and NTIA has
      since established a policy to deactivate returned coupons. But this incident
      shows how important it is for someone to go to the sites to see how the coupon
      program is actually being managed.

   •	 During our site visit to the second subcontractor, we learned that the
      subcontractor was not conducting a test in accordance with the IBM audit
      plan, and we identified several actions that would enhance the retail
      surveillance log. This log tracks potential coupon program violations by
      recording the retailer involved, the type of surveillance performed (such as
      requests for information or secret shopper exercises), and the status and
      results of the surveillance.

       The subcontractor agreed that it was not conducting the test as stipulated in
       the audit plan and that the surveillance log should be changed to be more
       clear and useful. In the subcontractor’s June 2008 report, the surveillance log
       was revised to clearly show whether incidents were closed or open.


                                           5

U.S. Department of Commerce                                      Final Report CAR-19004-1 

Office of Inspector General                                                November 2008



   •	 NTIA was not providing regular feedback on IBM’s audit plans and reports.
      Although regular feedback was called for in NTIA’s audit plan, we found only
      one set of formal comments on IBM’s reports, dated June 24, 2008. NTIA
      subsequently has informed us it has begun to hold regular meetings with
      IBM and its subcontractors on the waste, fraud, and abuse prevention
      program and that since the June 2008 reports, the bureau has commented on
      monthly reports received from IBM.

In addition to the actions NTIA has taken to address the concerns we have raised,
an important step would be to revise the plan detailing its waste, fraud, and abuse
procedures and include a complete list of activities, including a detailed explanation
of NTIA’s role in decertifying retailers and the scheduling of regular meetings with
IBM and its subcontractors on the waste, fraud, and abuse program. NTIA should
identify a person accountable for each activity performed, develop a schedule of how
often each activity should be conducted, and indentify the resources necessary to
implement the plan. As the digital transition date draws nearer and consumers
continue to request and redeem coupons, it is essential that NTIA act promptly to
further strengthen its internal controls over the program.

Recommendation

NTIA should revise its TV Converter Box Coupon Program: Program Management
Office Waste, Fraud, and Abuse Plan, to include a complete list of its activities and
responsible individuals. The revised plan should also stipulate how often procedures
should be performed and the resources needed. NTIA needs to track its efforts
against the plan. Prompt action also should be taken to address any shortfalls in
resources available to the project management office for its program to
prevent/reduce converter box coupon program waste, fraud, and abuse.


NTIA Response

On November 7, 2008, NTIA responded to our draft report stating that it
appreciates and accepts our findings and recommendations. NTIA noted that it
works with IBM in real time, on a daily basis, to prevent and reduce instances of
waste, fraud, and abuse in the coupon program. The bureau provided additional
detail on internal controls that it has implemented to identify, deter, and prevent
waste, fraud, and abuse. NTIA presented information on the requirements a
retailer must meet to be certified in the coupon program, the process for
decertifying retailers that violate program rules, and procedures for monitoring
online activity involving the sale of coupons.




                                          6

U.S. Department of Commerce                                   Final Report CAR-19004-1 

Office of Inspector General                                             November 2008



NTIA stated that it has revised its waste, fraud, and abuse plan and that IBM has
improved the timeliness of its reporting: IBM provided the August 2008 audit test
results to NTIA on September 17 and the September audit results on October 17.
NTIA also noted that it now provides comments to IBM on these reports.

OIG Comments

We believe the steps NTIA has taken and plans to take are responsive to our
recommendations.




                                        7

U.S. Department of Commerce                                    Final Report CAR-19004-1 

Office of Inspector General                                              November 2008



             APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY
 


The objectives of our audit were to (1) assess the adequacy of NTIA controls to
prevent waste, fraud, and abuse in the Converter Box Coupon Program and (2)
determine the effectiveness of the bureau’s oversight of the program, including
monitoring the contract. This audit was initiated in April 2008 following an audit
survey that we performed between November 2007 and March 2008. Although
NTIA had been accepting applications since January and distributing coupons to
consumers since February, it had still not approved IBM’s Quality Monitoring and
Control Plan, which documents program risks, the controls established to eliminate
those risks, and tests performed to verify controls are working. In addition, NTIA
had not approved IBM’s Waste, Fraud, and Abuse Audit Plan or completed an audit
plan documenting its procedures to oversee contractor efforts.

We obtained an understanding of internal controls through interviews with
personnel at NTIA, IBM, and subcontractors with program responsibilities. We also
reviewed the August 2007 contract with IBM to administer the program and
produce contract deliverables such as the Quality Monitoring and Control Plan. In
addition, we reviewed waste, fraud, and abuse audit plans prepared by NTIA and
IBM; IBM and subcontractor audit reports detailing the results of activities they
performed; and documentation (e.g., retailer activity reports) relating to NTIA
procedures.

We obtained information on program status and results by attending monthly
program management reviews held between NTIA and IBM and by reviewing
weekly status reports. We met with the NTIA program director and acting deputy
for the Converter Box Coupon Program and other NTIA officials with waste, fraud,
and abuse responsibilities. We also had telephone conversations with the
contracting officer.

We also interviewed IBM and subcontractor personnel to obtain an understanding
of the system controls and audit tests performed, the audit documentation
maintained, and the reporting of audit results. Based upon this understanding, we
selected those controls and tests that we felt were most critical for evaluating
whether the tests had been performed consistent with IBM’s audit plan and the
results accurately reported.

IBM’s audit plan follows the Government Accountability Office (GAO’s) Financial
Audit Manual in determining sample sizes: it evaluates a representative number of
transactions per month for its tests. For most tests, we randomly selected 11 of the
transactions from one month that had been tested by IBM subcontractors and
retested them. In addition, for some tests we randomly selected 11 transactions that
had not been tested by IBM and its subcontractor. We also reviewed five incidents


                                         8

U.S. Department of Commerce                                     Final Report CAR-19004-1 

Office of Inspector General                                               November 2008



from the retailer surveillance log to determine whether the incidents had been
adequately researched and resolved. Finally, we examined other procedures, such
as analyses of sales increases, and we reviewed IBM and subcontractor audit
reports for reasonableness and informational value.

To assess the reliability of the data provided by NTIA and IBM, we obtained a high-
level understanding of the significant systems in use by the Converter Box Coupon
Program. We noted that the certification and accreditation (C&A) packages for
these systems were reviewed by NTIA management and were granted the authority
to operate. We reviewed on a judgmental basis the system acceptance test plans,
test results, and supporting documentation for reasonableness for these three
systems. We concluded the computer-processed data provided by NTIA and IBM
was sufficiently reliable for the purposes of our audit.

We reviewed compliance with applicable provisions of pertinent laws and
regulations including the Digital Television Transition and Public Safety Act of
2005 and Digital-to-Analog Converter Box Coupon Program, 47 C.F.R. pt. 301
(2007). With respect to internal controls, we reviewed compliance with GAO’s
Standards for Internal Control in the Federal Government.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted our review from April 2008 through
August 2008 under the authority of the Inspector General Act of 1978 and
Department Organizational Order 10-13. We performed our audit work at NTIA
headquarters in Washington D.C.; IBM offices in Fairfax County, Virginia; and IBM
subcontractor facilities in Portland, Oregon, and Wichita, Kansas.




                                          9

U.S. Department of Commerce                                                                                 Final Report CAR-19004-1 

Office of Inspector General                                                                                           November 2008



                   APPENDIX B: NTIA Response to OIG Draft Audit Report

                                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                                             Natlonsl Telecommunlcstlons snd
                                                                             Informstion Adminietrstion
                                                                             Washington, D.C. 20230

                                                                            NOV      7 LOO8

             MEMORANDUM FOR:                      Judith 1. Gordon
                                                  Assistant Inspector General for Audit and Evaluation

             FROM:                                 Meredith Anwell Baker vJ>.,...!::-
                                                   Acting Assistant Secretary for Communications
                                                    and Information

            SUBJECT:                               Response to OIG Report: NTlA Should Further Improve
                                                   Digital-to-Analog Converter Box Coupon Program
                                                   Internal Controls to Prevent Waste, Fraud, and Abuse,
                                                   Draft Report No. CAR-I 9004-1

                    In accordance with Department Administrative Order 213-3, I am pleased to
            respond to the subject report on behalf of the National Telecommunications and
            Information Administration (NTIA). Since November 2007, the Office of Inspector
            General (OIG) has performed both an informal and a formal audit of NTlA's Digital-to­
            Analog Converter Box Coupon Program (Coupon Program). NTIA recognized early on
            that the Coupon Program wouli:l present opportunities for waste, fraud and abuse. In fact,
            NTIA approached the OIG immediately after the Digital Television and Public Safety
            Act of 2005 (the Act) was enacted into law to seek its advice on ways in which the
            agency could address waste, fraud and abuse in implementing the Coupon Program. I
            NTIA appreciates and accepts the findings and recommendations made by OIG and
            provides specific comments below.

            NTlA 's Regulations Contain Measures to Prevent Waste Fraud and Abuse

                     NTIA has instituted controls that have effectively identified, deterred and
            prevented waste, fraud and abuse in the Coupon Program. Recognizing that the sale of
            the converter boxes represented a point of vulnerability for fraud, NTIA focused on
            establishing controls between the Coupon Program and retailers. For example, in order
            for a retailer to be certified in the Coupon Program, NTIA's regulations require retailers,
            among other things, to be willing to have their converter box sales audited at any time, to
            have systems in place that can be easily audited, and to only accept coupons for and
            receive payment resulting from the purchase of authorized converter boxes. NTIA's
            regulations permit NTIA to decertify retailers for non-compliance with the regulations,
            "with the terms of any agreement made between the Certified Retailer and NTIA, or for
            other actions inconsistent with the Coupon Program." 47 C.F.R. §301.6(b)(3).
            Moreover, before a certified retailer can become a participating retailer, it must provide
            staff training, successfully process a test redemption coupon, and demonstrate that it has
            an adequate inventory of converter boxes.


            1   See Title 111 of the Deficit Reduction Act of 2005, Pub. L. 105-171, 120 Stat. 4, 23 (Feb. 8,2008).




                                                                    10 

U.S. Department of Commerce                                                                    Final Report CAR-19004-1 

Office of Inspector General                                                                              November 2008




            NTIA has an Effective Procedure to Decertify Retailers

                     NTIA and its contractor, IBM, have an established process for identifying
            retailers that appear not to be in compliance with the Program regulations and retailer
            agreements and to take appropriate action. NTIA moves expeditiously to decertify any
            retailer found not to be in compliance, notifies the retailer of its decertification, and takes
            steps to halt the processing of any pending requests for payment. In addition, NTIA
            reports certain cases to the OIG's investigative branch and refers matters to the Federal
            Trade Commission when retailer activity may involve misleading consumer advertising.
            Of the 2,409 retailers certified in the program, NTIA has decertified 16 retailers for non­
            compliance with program regulations or violation of the retailer agreement. In
            appropriate instances, NTIA has taken steps to recover overpayments to decertified
            retailers, which has resulted in the return of thousands of dollars to the U.S. Treasury.

            NTIA has an Established Plan to Prevent the Unauthorized Sale ofCouoons

                    NTIA also has established procedures for monitoring online activity involving the
            sale of coupons. For example, very early in the launch of the Coupon Program, NTIA
            worked with ebay Inc. so that the company's monitoring and filtering software
            automatically identifies and removes any posting that advertises coupons for sale. NTIA
            continues to monitor the site, however, and contacts ebay Inc to remove any coupon sales
            site that has eluded the filtering. NTIA has also worked closely with craigslist officials.
            At NTIA's request, craigslist amended its list of prohibited and restricted items the
            advertisement for sale of which is not permitted on craigslist to include "[c]oupons or gift
            cards that restrict transfer, and coupons or gift cards which you are not authorized to
            sell." See http://www.craigslist.org/about/prohibited.items. NTIA monitors postings on
            craigslist for violations of postings in violation of the prohibition against the sale of
            coupons, uses craigslist's user flagging system to identify prohibited postings, and
            contacts craigslist to assure that prohibited postings are taken down expeditiously.
            Officials at both companies have taken immediate action to remove coupon sales
            advertisements from their sites upon notification from NTIA.

            NTIA 's Internal Controls Have Improved

                    As part of this finding, OIG noted that NTIA has not been receiving audit results
            from its contractor until well after the applicable months. The time period that served as
            a basis for this finding, however, began in June 2008, and OIG acknowledged that since
            August 2008, the timeliness of these reports has improved.. The August report was .
            provided to NTIA on September 17, 2008, and the September report was provided to
            NTIA on October 17, 2008. Thus, IBM is now providing these reports within the two
            weeks after the close ofthe month, as NTIA had requested.

                    OIG also noted a review of a May 2008 contractor report revealed voluminous
            data tables with very limited analysis. However, OIG stated that the June and July 2008
            reports provided more meaningful data. NTIA notes that the recent reports received by




                                                           2




                                                           11 

U.S. Department of Commerce                                                                 Final Report CAR-19004-1 

Office of Inspector General                                                                           November 2008




            NTIA have provided more meaningful datil to the program. NTIA continues to monitor
            contractor performance in this regard.

            NTIA's Waste, Fraud and Abuse Plan has been Revised to Address DIG's Concerns

            DIG made the following recommendations with respect to NTIA's Waste, Fraud and
            Abuse (WFA) Plan:

                   ...NTIA [should] revise its "TV Converter Box Coupon Program: Management
                   Office Waste, Fraud and Abuse Plan" to include a complete list of its activities
                   and responsible individuals. The Revised plan should also stipulate how often
                   procedures should be perfonned and the resources needed. NTIA needs to track
                   its efforts against the plan. Prompt action also should be taken to address any
                   shortfalls in resources available to the project management office for its program
                   to prevent/reduce converter box coupon program waste, fraud, and abuse.

            NTIA notes that it has revised its WFA Plan to address the concerns raised by DIG.
            NTIA will provide a copy of the revised plan to DIG. Many of the OIG findings with
            respect to the plan, however, are being implemented. For example, DIG suggested that
            NTIA is not providing regular feedback on IBM's audit plans and activities. It also stated
            that although regular feedback was called for in NTIA's WFA plan, OIG found that
            NTIA had provided only one fonnal comment (June 24, 2008) on IBM reports. Since the
            June 2008 report, NTIA has received and commented on monthly reports from IBM.
            Likewise, OIG stated that some of the activities the plan calls for, such as contractor site
            visits, have not been fully perfonned. NTIA plans to make additional contractor site
            visits in accordance with the Revised WFA Plan. WFA is a major focus for the Program
            and NTIA is working with IBM in real time, on a daily basis, to prevent and mitigate
            instaIices of waste, fraud, and abuse.

                    I hope this response has been helpful. I would also like to take this opportunity to
            express NTIA's appreciation to the DIG staff for its expert advice on limiting the risk of
            waste, fraud, and abuse in the development of the Coupon Program's regulations, its
            conscientious and thorough audit of the Program, and its cooperation in investigating
            apparent waste, fraud, and abuse by retailers. If you have any questions, please contact
            NTIA's DIG liaison, Milton Brown, at (202) 482-1853.




                                                         3




                                                          12 

